johns&coulnelp]le

14101 Highway 290 West, Suite 400A
Austin, Texas 78737
512-399-3150

cjohns@johnsandcounsel.com

No. 19-54

KAROLYN GIVENS, ET AL.,
Petitioners,
V.

MOUNTAIN VALLEY PIPELINE, LLC,
Respondent.

CERTIFICATE 0F COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Reply Brief in the

above entitled case complies with the typeface requirement of Supreme Court Rule
33.1®), being prepared in Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 3,000 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 6th day of September, 2019.
IamdulyauthorizedunderthelawsoftheStateofTexastoadministeroaths.

